W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-8177

Michael T. Brooks

Agate Resources, Inc.

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Rachel C. Lee

Date:

6/1/21

Digitally signed by Rachel C. Lee
Date: 2021.06.01 14:58:51 -07'00'

(Type or print) Name Rachel C. Lee
Mr.

Ms.

Mrs.

Firm

Stoel Rives LLP

Address

760 SW Ninth Avenue, Suite 3000

City & State

Portland, OR

Phone

(503) 224-3380

Miss

Zip 97205
Email

rachel.lee@stoel.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Michael T. Brooks

